RECOGNITION OF REVENUES AND EXPENSES IN THE DEFENSE
           BUSINESS MANAGEMENT SYSTEM

Report No. D-2001-108                      April 27, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
BMR                   Business Management Redesign
DBMS                  Defense Business Management System
DFAS                  Defense Finance and Accounting Service
FISC                  Fleet Industrial Supply Center
NAVICP                Naval Inventory Control Point
WCF                   Working Capital Fund
                         Office of the Inspector General, DoD
Report No. D-2001-108                                                       April 27, 2001
   (Project No. D2000FC-0279.003)

            Recognition of Revenues and Expenses in the Defense
                       Business Management System

                                    Executive Summary

Introduction. This report is the third in a series of reports on reliability of information
supporting the Navy Working Capital Fund Financial Statements and related internal
controls. The previous reports dealt with inventory revaluation and our endorsement of
the Naval Audit Service disclaimer of opinion on the FY 2000 Navy Working Capital
Fund Financial Statements. We performed the audit in response to the Chief Financial
Officers Act of 1990, as amended by the Federal Financial Management Act of 1994,
which requires the DoD to provide audited financial statements to the Office of
Management and Budget. The Supply Management activity group is the largest of the
nine activity groups in the Navy Working Capital Fund, and it reported $5.4 billion in
revenue and $5.5 billion in expenses for FY 2000. The Supply Management activity
group used the Defense Business Management System (DBMS) to account for
$304 million of revenue from services provided and operating expenses of $1.2 billion.
Approximately $413 million of the total operating expenses were personnel related and
excluded from our review. The remaining $760 million of operating expenses were the
types of expenses tested by our audit. Revenue from sale of inventory and related cost of
goods sold were accounted for in other accounting systems.

Objectives. Our overall objective was to determine the reliability and effectiveness of
processes and procedures used to compile and prepare the Navy Working Capital Fund
financial statements. The objectives of this phase of the audit were to review procedures
and controls over the recognition of revenue and expenses for the Navy Working Capital
Fund within the DBMS, and to evaluate the reliability of that financial information
provided to the Defense Finance and Accounting Service (DFAS) Cleveland for inclusion
in the Navy Working Capital Fund financial statements. We reviewed management
controls and compliance with laws and regulations as they related to the audit objectives.
See Appendix A for a discussion of the audit process.

Results. The recording of revenues, accounts receivable, expenses and accounts payable
in DBMS did not comply with DoD accounting policy. Specifically,

     • DFAS Columbus prematurely recorded revenue and accounts receivable in
       general ledger accounts based on obligations rather than actual earnings.
       Approximately $3.6 million (90 percent) of the $4 million in revenue
       transactions reviewed was recognized prematurely (finding A).
     • The Fleet Industrial Supply Center Puget Sound and Naval Inventory Control
       Point Mechanicsburg did not always record expenses and accounts payable when
       material or services were received. In some cases, expenses were recognized
       when the related disbursement was recorded in the DBMS and in other cases, the
       expense was recorded when funds were initially obligated. Approximately
       $1.5 million (48 percent) of the $3.1 million of expense transactions reviewed
       was not recognized during the month that the expense was incurred (finding B).

We reviewed sample transactions at 2 of the 12 Navy Working Capital Fund
organizations using DBMS. However, with such large percentages of revenue and
expenses not recognized in the proper accounting period, we are concerned about the
reliability of $304 million in revenue and $760 million in expenses (excluding payroll-
related costs) reported from the DBMS for the FY 2000 financial statements of the
Supply Management activity group of the Navy Working Capital Fund. We identified
material control weaknesses at DFAS Columbus and the two Navy Working Capital Fund
offices visited. See Appendix A for details regarding management controls within
DBMS over the recognition of revenues and expenses.

Summary of Recommendations. We recommend that the Director, DFAS, with
assistance from the Assistant Secretary of the Navy, Financial Management and
Comptroller, establish interim procedures to recognize revenue in the DBMS when
earned and that DFAS ensure that the new Business Management Redesign system has
appropriate procedures and controls to correctly recognize revenue when earned. We
also recommend that the Commander, Naval Supply Systems Command, establish
procedures and controls to ensure that personnel provide sufficient information to the
appropriate Navy accounting offices to record expenses and accounts payable in the
period incurred. In addition, we recommend that the Director, DFAS, require that the
Business Management Redesign system generate management reports to help monitor the
timeliness of the recording of expenses and accounts payable.

Management Comments. DFAS and the Navy both concurred with the
recommendations. DFAS will work with the Navy to revise current practices or to
develop interim procedures to ensure revenues are properly recorded in the correct
accounting period. DFAS has included procedures and controls in the Business
Management Redesign system to recognize revenue when earned and produce
management reports to monitor the timeliness of recording expenses and accounts
payable. The Navy will establish procedures and controls to ensure its personnel provide
sufficient information to appropriate Navy accounting offices to record expenses and
accounts payable in the period incurred.




                                           ii
Table of Contents

Executive Summary                                         i


Introduction
     Background                                          1
     Objectives                                          2

Findings
     A. Recognition of Revenue and Accounts Receivable    3
     B. Accrual of Expenses and Accounts Payable          6

Appendixes
     A. Audit Process
         Scope                                           13
         Methodology                                     14
         Management Control Program Review               15
         Prior Coverage                                  16
     B. Report Distribution                              17

Management Comments
     Department of the Navy                              19
     Defense Finance and Accounting Service              22
Background
    DoD is required by Public Law 101-576, the “Chief Financial Officers Act of
    1990,” November 15, 1990, as amended by Public Law 103-356, the “Federal
    Financial Management Act of 1994,” October 13, 1994, to submit to the Office of
    Management and Budget annual financial statements that have been audited by
    the Inspector General, DoD. This report is the third in a series of reports on the
    Navy Working Capital Fund (WCF) financial statements. Report
    No. D-2001-022, “Inventory Revaluation for the Navy Working Capital Fund by
    the Naval Supply Systems Command,” December 18, 2000, discusses erroneous
    accounting entries to revalue inventory recorded by the Naval Supply Systems
    Command. Report No. D-2001-057, “Inspector General, DoD, Oversight of the
    Naval Audit Service Audit of the FY 2000 Navy Working Capital Fund Financial
    Statements,” February 21, 2001, endorses the Naval Audit Service disclaimer of
    opinion on the financial statements. This report discusses procedures and controls
    over the recognition of revenue and expenses in the Defense Business
    Management System (DBMS) and the reliability of the financial information that
    the DBMS provides to the Defense Finance and Accounting Service (DFAS)
    Cleveland for inclusion in the Navy WCF financial statements.

    Navy Working Capital Fund. The Navy WCF finances nine primary activity
    groups, which provide support to the Navy and other authorized customers. For
    FY 2000, the Navy WCF reported $25 billion in assets, $6 billion in liabilities,
    $13.7 billion in revenue, and $13.6 billion in expenses. The Supply Management
    activity group, the largest of the nine groups, acquires, stocks, stores, and issues
    inventory in support of Fleet and Marine forces, shore activities, and other DoD
    and Federal Activities. This activity group reported $16.6 billion in assets,
    $1.6 billion in liabilities, $5.4 billion in revenue, and $5.5 billion in expenses.

    Defense Business Management System. The Navy WCF utilized the DBMS to
    account for revenue from services provided and operating expenses for the Supply
    Management activity group. In FY 2000, the DBMS reported for the Supply
    Management activity group revenue of $.3 billion from services provided and
    $1.2 billion in operating expenses. Approximately $.4 billion of the operating
    expenses were personnel related expenses, which are excluded from the scope of
    our audit.

    The DBMS, developed and maintained by DFAS, is a resource management and
    accounting system. In addition to the Navy WCF, the DBMS provides accounting
    support to the Air Force Material Command, Defense Commissary Agency,
    Defense Contract Audit Agency, DFAS, and the Defense Logistics Agency.
    DBMS has been designated as a legacy system and, as such, there is no funding
    available to make system changes.

    DFAS Columbus established a project office to develop an integrated financial
    management information system referred to as the Business Management



                                          1
     Redesign (BMR) system to replace the DBMS. The BMR would incorporate the
     functionality of DBMS and its related suite of systems. The application is
     designed to implement an integrated financial management information system
     for DFAS with reduced operating costs and improved system performance.
     Commercial off-the-shelf procurement was selected as the acquisition strategy.
     Approval for systems development and demonstration, Milestone B, is expected
     in April 2001, and the project office anticipates awarding a contract at the end of
     May 2001. Initial operational capability of the system, for DFAS programs, is
     scheduled for October 2002. An initial operational capability for Navy programs
     has not been established.

     Defense Finance and Accounting Service. DFAS Columbus performed
     accounting services and prepared financial reports and financial statements for
     DoD agencies and the Military Services. DFAS Columbus also processed
     employee travel payments, performed cash reconciliations, and processed
     interfund and reimbursable billings. In addition, the Accounting Division at
     DFAS Columbus was the administrator for the DBMS. DFAS Cleveland received
     information from the DBMS and other feeder systems and compiled the FY 2000
     financial statements for the Navy WCF.


Objectives
     Our overall objective was to determine the reliability and effectiveness of
     processes and procedures used to compile and prepare the Navy WCF financial
     statements. The objectives of this phase of the audit were to review procedures
     and controls over the recognition of revenue and expenses for the Navy WCF
     within the DBMS, and to evaluate the reliability of the financial information
     provided to DFAS Cleveland for inclusion in the Navy WCF financial statements.
     We reviewed management controls and compliance with laws and regulations as
     they related to the audit objectives. See Appendix A for a discussion of the scope,
     methodology, management control program review, and prior audit coverage.




                                          2
           A. Recognition of Revenue and
              Accounts Receivable
           DFAS Columbus prematurely recorded revenue and accounts receivable in
           the general ledger accounts for the Navy WCF. Of the $4 million in
           revenue transactions reviewed, $3.6 million (90 percent) was recognized
           prematurely. This occurred because the DBMS was programmed to
           record earnings (revenue) from reimbursable orders based on the
           obligation of funds to perform the work rather than cost incurred to
           complete the work. As a result, only 10 percent of revenue transactions
           sampled were properly recorded. Therefore, we are concerned about the
           reliability of the $304 million in revenue that the DBMS reported to DFAS
           Cleveland for inclusion in the FY 2000 financial statements for the
           Navy WCF.


Criteria for Recognizing Revenue and Accounts Receivable
    The “DoD Financial Management Regulation,” DoD Regulation 7000.14-R,
    volume 11B, “Reimbursable Operations,” December 1994, requires revenue and
    associated costs be recognized in the same accounting period. Volume 4,
    “Accounting Policy and Procedures,” August 17, 2000, requires accounts
    receivable to be recorded based on completion of the acts that entitle the DoD to
    collect amounts owed it.

    The Federal Accounting Standards Advisory Board “Statement of Federal
    Financial Accounting Standards Number 7,” April 1996, states revenue from
    exchange transactions should be recognized when goods or services are provided
    to the public or another Government entity at a price.

    The “Guide to Federal Requirements for Financial Management Systems,”
    chapter 5, “Revenue and Accounts Receivable,” April 14, 1998, states that the
    system must recognize revenue from exchange transactions when goods or
    services are sold to the public or another Government entity. The guidance also
    establishes that the system must recognize revenue when services are performed
    for the public or another Government entity.

Recording Revenue and Accounts Receivable in DBMS
    The DBMS was programmed to recognize revenue when obligations that cited a
    Reimbursable Job Order Number were established in the DBMS, such as when
    contracts for services or material were awarded. We reviewed 105 revenue
    transactions totaling $4 million out of $9.3 million in revenue reported during
    May 2000 for the Fleet Industrial Supply Center (FISC) Puget Sound and the



                                         3
Naval Inventory Control Point (NAVICP) Mechanicsburg. Results showed that
$3.6 million (90 percent) of the revenue transactions reviewed were recognized
based on obligations rather than completion of the job order.

Early Recognition of Revenue and Accounts Receivable. DBMS prematurely
recognized earnings (revenue) for 47 of the 105 sample transactions. Of
$4 million of revenue transactions reviewed, $3.6 million (90 percent) was
recorded as revenue and accounts receivable before work was performed or
services were provided. DBMS recognized revenue prematurely because DBMS
was programmed to record earnings based on an obligation with a matching Job
Order Number. An obligation is an agreement that will result in outlays of
budgetary resources, immediately or in the future. However, an obligation does
not establish a cost or support the receipt of goods or services. Therefore, an
obligation should not be the basis for the recording of an earning. Revenue
should be recognized and recorded based on the associated costs that support the
receipt of the goods or service.

Of the remaining 58 earnings transactions, 47 earnings transactions were related
to personnel costs that were recognized based on automatic interface with the
personnel pay system. These transactions were recorded in the proper period.
We were not able to determine the basis for the remaining 11 transactions because
of insufficient audit trails in DBMS. DFAS Columbus personnel were not able to
explain or identify the basis for those recorded earnings.

The DBMS did not readily identify the amount of revenue recorded automatically
based on obligations. Also, because our audit tests were not performed at the end
of FY 2000, we are not able to estimate what portion of the $304 million in
revenue reported for the Supply Management activity group in the DBMS was
misstated on the FY 2000 financial statements. However, based on the result of
our review, we are concerned about the reliability of the financial data for revenue
and accounts receivable provided to DFAS Cleveland for inclusion in the monthly
reports and yearly Chief Financial Officer financial statements.

System Capabilities for Revenue Recognition. Because the DBMS is a legacy
system and scheduled to be replaced by the BMR system, management was not
allowed to make costly changes to the system. The systems requirements for the
BMR application provide the capability to establish earnings based on unit cost,
percentage of completion, time period pro-ration, or actual cost. Accordingly, we
are not recommending modification to the DBMS or the BMR system. However,
until the BMR system is fielded, revenue and accounts receivable reported by the
DBMS will not be reliable. The BMR system provides alternative revenue
recognition methodologies. We believe that the actual cost method would be the
most appropriate methodology for the Navy WCF organizations to adopt.




                                     4
Recommendations and Management Comments
    A.1. We recommend that the Director, Defense Finance and Accounting
    Service, with assistance from the Assistant Secretary of the Navy, Financial
    Management and Comptroller, establish interim procedures to recognize
    revenue recorded in the Defense Business Management System in accordance
    with the DoD Financial Management Regulation.

    DFAS Comments. DFAS concurred and will work with the Navy to revise
    current business practices or develop interim procedures to ensure that revenues
    are properly recorded in DBMS in accordance with DoD Regulation 7000.14-R.
    DFAS Columbus and the Navy will develop a plan of action and milestones to
    implement the changes by September 30, 2001.

    Navy Comments. The Navy concurred in principle and noted that
    implementation of the interim revenue recognition procedures will depend on
    workload considerations and the deployment of the BMR.

    A.2. We recommend that the Director, Defense Finance and Accounting
    Service, ensure that the new Business Management Redesign System, when
    fielded, has appropriate procedures and controls to recognize revenue during
    the period the revenue was earned.

    DFAS Comments. DFAS concurred and indicated that the requirements for the
    BMR include appropriate procedures and controls to recognize revenue during the
    period it is earned. The deployment of the Business Management Redesign
    System has not been determined.




                                        5
           B. Accrual of Expenses and Accounts
              Payable
           FISC Puget Sound and NAVICP Mechanicsburg did not properly accrue
           expenses in the month they occurred. Of the $3.1 million in expense and
           accounts payable transactions reviewed, $1.5 million (48 percent) were
           not properly recorded during the month the expense was incurred.
           Approximately $1.3 million (42 percent) were recorded at least 1 month
           after the expense occurred and $.2 million (6 percent) were recorded
           before the expenses should have been recognized. In addition, the 2 Navy
           accounting offices did not have adequate documentation to support the
           recorded expenses for $2.3 million of the $3.1 million in expense
           transactions sampled. Those conditions occurred because FISC Puget
           Sound and NAVICP Mechanicsburg had not established procedures and
           controls to ensure that expenses and accounts payable were recorded when
           material or services were received based on supporting documentation.
           Instead, expenses and accounts payable were recognized when
           disbursements were recorded in the accounting system or when
           obligations were established. As a result, only 52 percent of expenses
           sampled were properly recorded in the month incurred. Therefore, we are
           concerned about the reliability of $760 million in expenses, excluding
           personnel costs, that the DBMS reported to DFAS Cleveland for inclusion
           in the FY 2000 financial statements for the Supply Management activity
           group of the Navy WCF.


Policy for Recording Expenses and Accounts Payable
    DoD Regulation 7000.14-R, volume 4, “Accounting Policy and Procedures,”
    August 2000, chapter 9, “Accounts Payable,” establishes policy for the recording
    of accounts payable by DoD Components. An amount recorded as a liability must
    be supported by documentation in the form of a receiving report that clearly
    shows the material was received or the service was performed. In addition,
    accounts payable should be recorded when the accounting station has received
    evidence in the form of either an inspection or a receiving report. Chapter 17,
    “Expenses and Miscellaneous Items” states that costs that apply to an entity’s
    operations for the current accounting period are recognized as expenses of that
    period.




                                       6
Operating Expenses of the Supply Management Activity
  Group
    The Navy WCF financial statements for FY 2000 included $1.2 billion in
    operating expenses of the Supply Management activity group. DFAS Columbus
    used the DBMS to account for those operating expenses. Approximately
    $413 million of the total operating expenses were personnel related and are
    excluded from the scope of this review. The remaining $760 million of operating
    expenses were the types of expenses tested during our audit.

    Operating Expenses Recorded During May 2000. During May 2000, operating
    expenses totaling $97.5 million were recorded in the DBMS. Approximately
    $35.6 million of the operating expenses were personnel related, while
    $61.9 million were related to travel, transportation, materials, services and other
    expenses. NAVICP Mechanicsburg and FISC Puget Sound (2 of the 12 Navy
    WCF organizations using DBMS) accounted for $9.5 million of the $61.9 million
    in non-personnel related operating expenses reported during May 2000.


Expense Recognition
    We reviewed 101 expense type transactions that NAVICP Mechanicsburg and
    FISC Puget Sound recorded in May 2000. Those transactions represented
    $3.1 million of the $9.5 million in non-personnel related expenses recorded
    during May 2000. Approximately $1.5 million (62 transactions) of the
    $3.1 million reviewed (48 percent) were not properly recorded during the month
    the expense was incurred. Of the 62 transactions, 47 transactions, totaling
    $1.3 million, were recorded at least 1 month after the material or service was
    received. For the remaining 15 transactions the expenses, totaling $.2 million,
    were recorded before the material or service was received. The following table
    shows the type of expenses that the transactions represented.




                                         7
                                   Expense Recognition by Type

                                     Late Recognition of Expenses

       Document Type                               Number of           Dollar Value of Transactions
                                                  Transactions                 Represented
                                                  Represented                 (in thousands)
Service contracts                                     24                             $1,132
Material contracts                                     9                                154
Material requisitions                                 13                                  3
Training                                                1                                 2
 Subtotal                                             47                             $1,291

                                   Premature Recognition of Expenses

Bulk obligations                                       2                            $ 175
Travel authorizations                                 13                               24
 Subtotal                                             15                            $ 199

  Total expenses recognized late
    or prematurely                                    62                           $1,490



    Recognition of Expenses After Occurrence. Failure to recognize an expense
    during the period when goods and services are received violates accrual
    accounting procedures and results in a misstatement of expenses and accounts
    payable in the financial statements. Of $3.1 million in expense transactions
    reviewed, $1.3 million (42 percent) of those expenses should have been recorded
    in a prior month.

            Service Contracts. For the 24 transactions involving service-type
    contracts, expenses and accounts payable were recognized when disbursements
    were recorded in the DBMS rather than when the service was received. For 22 of
    the 24 transactions, the invoice or receiving report was not available from the
    Navy accounting office indicating that the receiving documents were not provided
    to the Navy accounting offices. For the other 2 transactions, receipt documents
    were obtained from the Navy accounting office, but the expense was not
    recognized until the disbursement was recorded in the DBMS.

            Material Contracts. For the 9 transactions involving material purchases,
    the expense and accounts payable were not recorded when the material was
    received, although in some instances, the Navy accounting office had copies of
    the receiving documents. The expense was not recognized until the disbursement
    was recorded in the DBMS. For example, DFAS Columbus recorded a
    disbursement of $5,568.15 in DBMS on April 27, 2000. The expense was also
    recorded at that time. However, the invoice and shipping document for the




                                              8
material were dated September 14, 1999. As a result, the expense was not
properly recorded within the DBMS system until 7 months after the receipt of the
material.

        Material Requisitions. For the 13 transactions involving $3,000 in
material requisitions, the expense and accounts payable were not recorded when
the material was received. Instead, the expense was recognized when interfund
billings were processed to record the related disbursement in the DBMS.
Interfund billing transactions represent an automated billing and funds transfer
process among Government entities that have a buyer/seller relationship. For 1 of
the 13 transactions, there was no record of material receipt at the Navy accounting
office. For the other 12 transactions, the Navy accounting office was provided
receipt documentation; however, its personnel did not record the receipt in DBMS
when the documentation was received. For example, the receiving documents for
requisition number N322560032T837 were dated March 17 and March 19, 2000.
However, the expense and accounts payable were not recorded based on receipt of
the material. The disbursement (interfund billing) for the requisition was posted
to DBMS on April 21, 2000.

       Training. For the one transaction involving employee training, FISC
Puget Sound did not record an obligation prior to the training and did not
recognize the expense and accounts payable when the training was completed.
For document number N004060TGD0060, the training invoice was dated
February 7, 2000, and the class was taken from January 24 through
January 28, 2000. The obligation and expense for the training was not recorded in
DBMS until April 11, 2000, 3 months after the class had been completed.

Recognition of Expenses Based on Obligations. Accrual accounting procedures
require that expenses should not be recognized until the expenses actually occur.
Recording expenses based on obligations overstates the expenses and accounts
payable. Of $3.1 million in expense transactions, $.2 million (6 percent) of those
expenses should have been recorded in a later month.

       Bulk Obligations. NAVICP Mechanicsburg recognized expenses and
accounts payable prematurely when bulk obligations for subsequent credit card
purchases totaling $175,000 were recorded. By December 31, 1999, NAVICP
Mechanicsburg had processed the bulk obligations using transactions that
simultaneously recorded an obligation, and expense. However, no purchases
were made against those funds. In May 2000, the $175,000 was returned to the
fund-holder and NAVICP Mechanicsburg recorded 2 transactions, totaling
$175,000 to reverse the expense and accounts payable. As a result, expenses and
accounts payable in the general ledgers were overstated for 5 months.

         Travel Authorizations. For the 13 transactions related to employee
travel, the 2 Navy accounting offices recognized expenses and accounts payable
when funds were obligated, prior to the performance of the travel. The FISC
Puget Sound and NAVICP Mechanicsburg accounting offices commonly



                                     9
    recorded transactions in DBMS to recognize the commitment, obligation, and
    expense when the travel authorization was processed. Entering transactions in
    this manner created an expense and an accounts payable prior to the performance
    of the travel. For example, an expense for travel order number N00406TOB0173
    was recorded on May 12, 2000. However, the travel for this authorization was
    not scheduled to occur until June 10, 2000. For 2 other travel authorizations in
    our sample, the planned travel was canceled; however, the expense was recorded
    in the general ledger for at least 1 month before the transaction was reversed. As
    a result, incorrect amounts were reported for expenses and accounts payable in the
    general ledger used to produce the monthly financial statements.

    Documentation Supporting Expenses. Of the 101 expense transactions
    reviewed, neither of the 2 Navy accounting offices had adequate receipt
    documentation for 36 transactions, valued at $2.3 million. This occurred because
    NAVICP Mechanicsburg and FISC Puget Sound had not established procedures
    and controls to ensure that the required receipt documentation was provided to the
    Navy accounting office. In the case of material and service contracts, the Navy
    accounting office was not on the distribution list for the invoices.

           •   For 22 expense transactions totaling $1.6 million, the Navy accounting
               office did not have receiving reports or certified invoices to indicate
               that the material or service was received. Accordingly, we were not
               able to verify that the expense was recorded in the proper accounting
               period.

           •   For 14 expense transactions totaling $.7 million, the receiving reports
               or certified invoices were also not available from the Navy accounting
               office. However, based on additional research, we found that those
               expenses were recorded at least 1 month after the expense was actually
               incurred. Therefore, those transactions were included in the
               $1.3 million previously discussed as transactions recorded after the
               expenses were incurred.

    Recognition of Expenses in the Proper Accounting Period. For 17 ($51,387)
    of the 101 expense transactions, the expense was recognized in the proper
    accounting period. In these cases the receiving report or certified invoice was
    provided to the Navy accounting office and recorded in the DBMS in a timely
    manner. The expense transactions that were recorded in a timely manner included
    credit card purchases, service contracts, material contracts and material
    requisitions.

BMR Requirements for Recognition of Expenses and
 Accounts Payable
    The DBMS accounting system used during FY 2000 was a legacy system and was
    scheduled to be replaced with the BMR system as early as October 2001. The



                                        10
   BMR systems requirements specifications, November 22, 2000, for expenditure
   capabilities require that the new system allow for on-line interface capability to
   post the expense. The new system will also allow for on-line input to post
   disbursements to a corresponding commitment/obligation, as well as allowing for
   multifunction transactions, such as commitment, obligation and accrual posting
   simultaneously. In addition, the new system will allow for an interface for travel
   to include the posting of the related expenses. The implementation of the BMR
   system will alleviate the deficiencies related to training, travel, and material
   requisition transactions cited in this finding. Therefore, we are not making any
   recommendations related to the processing of those transactions. However,
   because the new system will allow these new posting and multifunction
   transaction capabilities, the Navy accounting offices will need to establish
   procedures and strengthen management controls to ensure that transactions are
   recorded at the time the expense occurs. To help strengthen controls, the BMR
   system should be modified to generate reports identifying untimely expense
   recognition in order for the Naval Supply Systems Command and WCF
   organizations to monitor the organizations’ internal controls over receipt
   processing.



Summary
   FISC Puget Sound and NAVICP Mechanicsburg accounting offices’ procedures
   and controls over the recording of receipt of material and services were
   inadequate. Our sample included only 2 of the 12 Navy WCF organizations using
   the DBMS. However, the large percentage of expenses recorded based on the
   wrong criteria leads to questions of the overall reliability of reported expenses and
   accounts payable. Expense and accounts payable recognition did not comply with
   the accrual accounting principles set forth in the DoD accounting policy. In some
   cases, the improved system requirements and interfaces, as outlined in the BMR
   system requirements, should alleviate the cited deficiencies. However, the BMR
   system will not require the expense and accounts payable to be recorded in the
   system prior to posting of the disbursement. In addition, the BMR system will
   permit the Navy WCF organizations to record obligations and expenses
   simultaneously. Accordingly, it is imperative that accounting organizations
   implement procedures outlined in DoD Regulation 7000.14-R to recognize
   expenses and accounts payable based on a receiving document or certified invoice
   rather than on a disbursement or obligation.




                                        11
Recommendations and Management Comments
    B.1. We recommend that the Commander, Naval Supply Systems
    Command, establish procedures and controls that ensure that the personnel
    receiving material and services provide receiving reports and certified
    invoices to the appropriate Navy accounting office.

    Navy Comments. The Navy concurred and will provide direction to its field
    organizations using DBMS to establish procedures and controls to ensure
    expenses and accounts payable are posted in the period incurred. The action will
    be completed by July 31, 2001.

    B.2. We recommend that the Commander, Naval Supply Systems
    Command, require Navy accounting offices using the Defense Business
    Management System, and the Business Management Redesign system in the
    future, to post expense and accounts payable transactions in the period
    incurred based on receiving documents and invoices in accordance with DoD
    Regulation 7000.14-R.

    Navy Comments. The Navy concurred and will provide direction to its field
    organizations using DBMS and applicable follow-on systems to establish
    procedures and controls to ensure that expense and accounts payable transactions
    are posted within the period incurred based on information received. This action
    will be completed by July 31, 2001.

    B.3. We recommend that the Director, Defense Finance and Accounting
    Service, direct the Business Management Redesign project office to
    incorporate a requirement in the Business Management Redesign system to
    generate management reports to the Naval Supply Systems Command and
    Navy Working Capital Fund organizations for monitoring the timeliness of
    the recording of expenses and accounts payable within the system.

    DFAS Comments. DFAS concurred and stated that the Business Management
    Redesign has incorporated requirements to generate management reports for
    monitoring the timeliness of recording expenses and accounts payable within the
    system.




                                       12
Appendix A. Audit Process

Scope
    Work Performed. We reviewed the DBMS processes and the DFAS Columbus
    procedures for calculating revenue from reimbursable orders. In addition, we
    reviewed Navy WCF procedures and controls over recording expenses in the
    DBMS. We judgmentally sampled 105 revenue transactions and 101 expense
    transactions recorded in the DBMS from FISC Puget Sound and NAVICP
    Mechanicsburg during May 2000.

    Limitations to Audit Scope. We excluded personnel expenses from the scope of
    our review. Personnel costs represented $413 million of the $1.2 billion in
    operating expenses reported from DBMS during FY 2000.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following objective and goal, subordinate performance
    goal, and performance measures.

           FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the force
           by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DoD-02)

           FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
           and information management. (01-DoD-2.5)

           FY 2001 Performance Measure 2.5.1: Reduce the number of
           noncompliant accounting and finance systems. (01-DoD-2.5.1.)

           FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions on
                                    −DoD-2.5.2.)
           financial statements. (01−

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and goal.

           Financial Management Area. Objective: Strengthen internal controls.
           Goal: Improve compliance with the Federal Managers’ Financial Integrity
           Act. (FM-5.3)



                                        13
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.

Methodology
    We reviewed transactions at the field activity level for both proper recording in
    the DBMS and compliance with DoD Financial Management Regulation
    guidance. Supporting source documentation for each transaction was obtained
    from the responsible Navy accounting office.

    Use of Computer-Processed Data. We relied on computer-processed data from
    the DBMS to evaluate the flow of data from source transactions to the General
    Ledger Account Codes within the DBMS. We did not evaluate the general or
    application reviews over the DBMS. We concluded that the data were
    sufficiently reliable to meet the audit objective. Not evaluating the controls did
    not affect the results of the audit.

    Universe and Sample Selection. We obtained May 2000 transaction data for the
    12 Navy WCF organizations being serviced by DFAS Columbus and using the
    DBMS. Total revenue and operating expenses reported from the DBMS for
    May 2000 was $21 million and $97.5 million, respectively. We excluded
    personnel related operating expenses totaling $35.6 million from the scope of our
    review due to the relatively low risk related to those types of transactions. Non-
    personnel related operating expenses reported by the DBMS totaled $61.9 million.
    Two Navy accounting offices, FISC Puget Sound and NAVICP Mechanicsburg
    were selected for audit based on the dollar amount of revenues and expenses
    reported for May 2000. The universe for the 2 organizations consisted of
    23,619 revenue transactions valued at $9.3 million and 6,375 expense transactions
    (excluding personnel expenses) valued at $9.4 million. For those 2 Navy WCF
    organizations, we judgmentally selected 101 expense transactions, valued at
    $3.1 million, and 105 revenue transactions, valued at $4.0 million, based on the
    dollar value of the transactions and the number of occurrences of the transaction
    type.

    Audit Type, Period, and Standards. We performed this financial-related audit
    from June 2000 through February 2001, in accordance with auditing standards
    issued through the Comptroller General of the United States, as implemented by
    the Inspector General, DoD. Accordingly, we included tests of management
    controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations in the DoD. Further details are available on request.




                                         14
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the management
    controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of DFAS Columbus management controls over the processing of
    accounting entries to financial data within the DBMS. In addition, we reviewed
    controls in place at FISC Puget Sound and NAVICP Mechanicsburg for the
    recording of revenues and expenses within the DBMS. We reviewed
    management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified material control weaknesses
    as defined by DoD Instruction 5010.40. Management controls at DFAS
    Columbus did not ensure that revenue was recognized in the proper accounting
    period. In addition, management controls at FISC Puget Sound and NAVICP
    Mechanicsburg did not ensure that expenses were recorded when services and
    materials were received. DFAS Columbus is in the process of replacing the
    DBMS with the BMR system. The BMR system provides for interfaces with
    feeder systems including logistics, travel and purchase card systems, which
    should improve the recognition of expenses. Recommendations A.1. and A.2., if
    implemented, would ensure that the recognition of revenue by the DBMS
    complied with DoD accounting policy. Recommendations B.1., B.2., and B.3., if
    implemented, would result in the timely recognition of expenses in the DBMS,
    and provide management visibility to the accounting organizations that do not
    record expenses when material and services are received. A copy of the report
    will be sent to the senior management officials in charge of management controls.

    Adequacy of Management’s Self-Evaluation. DFAS Columbus officials did
    not identify the recognition of revenues and expenses within the DBMS as an
    assessable unit; therefore, it did not identify or report the material management
    control weaknesses identified by this audit. In addition, FISC Puget Sound and
    NAVICP Mechanicsburg did not identify the lack of standard operating
    procedures for processing of data within the DBMS as an assessable unit or a
    material management control weakness.

    Adequacy of Management’s Assessment of Accounting Systems. The DBMS
    System Manager/User Review for FY 2000 was not completed because DBMS is
    scheduled for replacement in FY 2001. The DFAS Columbus FY 1998 System
    Manager/User Review of DBMS reported that the system was not in compliance
    with all of the key accounting requirements. The principal deficiency identified
    was that the U.S. standard general ledger account structure was not used.



                                        15
Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have conducted
    multiple reviews related to financial statement issues. General Accounting Office
    reports can be accessed on the Internet at http://www.gao.gov. Inspector General,
    DoD, reports can be accessed on the Internet at
    http://www.dodig.osd.mil/audit/reports. Naval Audit Service reports can be
    accessed on the Internet at http://www.hq.navy.mil/navalaudit.




                                       16
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Supply Systems Command

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service, Cleveland
   Director, Defense Finance and Accounting Service, Columbus

Non-Defense Federal Organization
Office of Management and Budget




                                           17
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          18
Department of the Navy Comments




                  19
20
21
Defense Finance and Accounting Service Comments




                        22
23
24
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD, who
contributed to the report are listed below.

F. Jay Lane
Salvatore D. Guli
Marvin L. Peek
Joel K. Chaney
Carrie A. Wade
Gregory M. Mennetti
William E. Hosick
Mark J. Thomas
Vanessa L. Ash
Judith A. Cook




                                          25
